CERTIFICATE OF SERVICE

T hereby certify that on this 2nd day of April, 2020, I served a copy of the Motion to Delay
Distribution of Petition for Writ of Certiorari on counsel for respondent by placing it in the United

States mail, first class postage prepaid, addressed to:

Jeffry A. Miller

Lewis Brisbois Bisgaard & Smith LLP
701 B Street

Suite 1900

San Diego, CA 92101

(619) 233-1006

   

I further certify that all parties required to be served have been sefved.
